                                               AUDIT OF

                        THE GUARANTY PURCHASE PROCESS

                                    AUDIT REPORT NO. 3-15




The findings in this report are the conclusion of the OIG’s Auditing Division based on testing of the auditee’s
operations. The findings and recommendations are subject to review, management decision, and corrective
action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
another agency without permission of the Office of Inspector General.
                                              AUDIT OF
                                    THE GUARANTY PURCHASE PROCESS



                                                         Table of Contents


                                                                                                                            Page

SUMMARY.................................................................................................................... i

INTRODUCTION.......................................................................................................... 1

    A. . Background ........................................................................................................... 1

    B. Objective and Scope ............................................................................................. 1

    C. Prior Audit Resolution .......................................................................................... 2

RESULTS OF AUDIT

Findings and Recommendations

     1. Purchase Procedures did not Minimize SBA’s Risk of
        Making Erroneous Payments. .............................................................................. 3

     2. The Guaranty Purchase Review Process can be Strengthened .............................15

APPENDICES

   A. Schedule of Loans Reviewed

   B. Management Response

   C. Audit Report Distribution
                                         SUMMARY

    SBA has taken several actions in recent years to improve the 7(a) guarantied loan purchase
process, including periodic quality assurance reviews and issuance of Policy Notice 5000-831,
“7(a) Loan Guaranty Purchase Policy.” While these actions should help shore up the guaranty
purchase process, additional measures are needed to strengthen the process and protect the Small
Business Administration (SBA) from making erroneous guaranty payments to lenders that
originate service, and/or liquidate loans in non-compliance with SBA rules and regulations.

     In 1983, SBA began to implement the Preferred Lenders Program (PLP) which allows certain
lenders to process, service, and liquidate SBA guarantied loans with reduced oversight by SBA.
Prior to the PLP, SBA reviewed all 7(a) loan purchase requests before approving a guaranty.
After the PLP began, the primary control used by SBA to assess lender compliance on PLP loans
is the guaranty purchase process, which is generally initiated by the lender after a PLP loan
defaults. Since 1983, there has been significant growth in PLP loans. In fiscal years 2001 and
2002, PLP loans represented 55 percent of the total dollars of 7(a) loans approved. Due to the
limited oversight of PLP loans, this growth has increased the risk of the 7(a) loan program and
the importance of the guaranty purchase process.

    This report examines the effectiveness of the guaranty purchase process to offset the
increased risk of the delegated authority under the PLP. The objective of the audit was to
determine if the guaranty purchase process identified all material lender errors and non-
compliances. During the audit, we examined the purchase decisions for 153 loans. The audit
showed that the guaranty purchase process in effect at the time did not identify material lender
errors and non-compliances in 30 of 153 purchased loans, which we believe should have resulted
in some form of corrective action, such as guaranty purchase repairs or denials. As a
consequence of not identifying these adverse conditions, SBA made $7.6 million in erroneous
payments when it honored the guaranties on the 30 loans.

   Lender deficiencies identified during the audit involved the following areas:

           o   repayment ability,
           o   equity injection,
           o   use of loan proceeds,
           o   IRS verification,
           o   credit worthiness,
           o   collateral, and
           o   eligibility.

   The primary reason these deficiencies were not detected was a lack of adequate guidance and
inconsistent interpretation of the guaranty purchase procedures. The purchase procedures in
effect at the time of the audit had not been materially revised or updated since 1983. As a


                                                i
consequence, the purchase process did not incorporate the necessary controls and procedures to
offset the increased risk of the delegated lending authority under the PLP.

   In FY 2000, SBA implemented the Guaranty Purchase Review (GPR) program as an
alternative solution to a 1997 OIG audit recommendation to centralize the guaranty purchase
process. The GPR is a quality assurance program designed to examine SBA compliance with
existing guaranty purchase review procedures and seek solutions for improving the process.
Although the GPR program is a step in the right direction, because it is limited to compliance
with existing procedures, it will not identify material non-compliance that can only be discovered
by reviewing lenders loan files. Also, the GPR does not use valid statistical sampling techniques
to select loans for review. Thus, the results of the GPR are not reliable for evaluating the
population of purchased loans or estimating the level of erroneous payments.

   One of the President’s initiatives for improving the government’s financial performance
includes reducing erroneous payments to recipients. Office of Management and Budge t Circular
A-11, Preparation, Submission, and Execution of the Budget, requires agencies to submit an
estimate of the extent of erroneous payments made with their budget. The largest amount of
erroneous payments made by SBA includes purchase of guaranties for loans where the lender did
not comply materially with SBA requirements. SBA’s current procedure of using the results of
the GPR to estimate erroneous payments is not necessarily representative of the total population
of guaranties purchased because the loans reviewed are not selected using valid statistical
sampling techniques, and therefore, cannot be relied upon to accurately estimate erroneous
payments.

   In October 2002, SBA issued Policy Notice 5000-831, “7(a) Loan Guaranty Purchase Policy,”
to clarify and strengthen the guaranty purchase process. The policy notice was based on
feedback from the GPR program, the Office of Financial Assistance (OFA), and the Office of
Inspector General (OIG). While implementation of the procedures discussed in the policy notice
should help shore up the guaranty purchase process, it can be further strengthened by including a
review of the lender’s loan files to ensure that all relevant documentation is obtained and
reviewed before a guaranty is honored. As demonstrated during the audit, many lender errors
and non-compliances were only discovered after reviewing the lenders’ loan files.
Consequently, including a review of the lenders’ loan file in the guaranty purchase review
process will help to protect against erroneous guaranty payments.

    Finally, during the audit the OIG conducted a survey of SBA’s field staff responsible for
performing detailed reviews of guaranty purchase requests and individuals approving purchase
decision recommendations. The survey revealed a difference in how the field offices interpreted
and applied the guaranty purchase process and procedures. Based on the survey, the
misinterpretations were generally due to a lack of understanding as to what should be reviewed
and questioned. The survey respondents also identified a lack of clear guidance and training as
the principle cause of our cited adverse condition. The survey results will be issued in their
entirety in an OIG Inspections Report.


                                                ii
    To improve the quality of the guaranty purchase process and reduce the incidence of
erroneous payments, we recommended that the Agency take the following actions: (i) establish
criteria for obtaining the entire lender’s loan file to ensure all deficiencies are detected; (ii)
establish timeframes for completing the training for all individuals involved with the guaranty
purchase process; (iii) employ valid statistical sampling techniques to select loans for GPR
review; (iv) obtain lenders loan files, on a sample basis, for review by the GPR teams, and (v)
revise the loan selection criteria for GPR reviews by deleting the requirement that loans must be
purchased and charged off within a specific time frame. SBA management indicated that it
would evaluate benefits of obtaining the lenders loan file and that a timeframe for training field
staff responsible for making purchase determinations has been established. Management did not
agree to implement the recommendations for improving the GPR process. SBA’s comments and
evaluations are included in the body of the report and in their entirety in Appendix B.




                                                iii
                                         INTRODUCTION

A. Background

    The SBA is authorized under Section 7(a) of the Small Business Act of 1958, as amended, to
provide financial assistance to small businesses in the form of government guarantied loans.
SBA guaranties loans that are made by participating lenders under a Guaranty Agreement to
originate, service, and liquidate loans in accordance with SBA rules and regulations. In the event
of non-compliance, SBA may be released from liability on a loan guaranty.

    Upon loan default a participating lender submits a guaranty purchase request to SBA. The
purchase request is reviewed and the guaranty is honored, unless it is determined that the lender
did not materially comply with program rules and regulations, in which case, SBA may be
released from the guaranty, in whole or part, at the discretion of the Agency.

    In recent years, the number of loans made under the PLP has increased significantly. PLP
lenders are authorized to make credit decisions with little or no oversight by SBA. In fiscal year
(FY) 2002, PLP loans comprised 30 percent of the total number of 7(a) loans approved. This
represented 55 percent of the total dollar value of loans approved that year, or $6.7 billion. The
increase in PLP loans also increased the importance of the guaranty purchase review process.
Other than the annual PLP lender compliance reviews, the only other opportunity SBA has to
assess lender underwriting, on a loan-by- loan basis, is when a guaranty purchase request is
submitted to the Agency. From FY 1999 through FY 2002, SBA purchased guaranties on PLP
loans totaling approximately $1.5 billion.

    The Office of Inspector General has conducted several audits of purchased loans in recent
years and found that the guaranty purchase process did not adequately protect SBA from making
erroneous purchase payments. In an audit report on guaranty purchases, issued on September 30,
1997 (Report No. 7-H-5-11-26), the OIG found that 17 of 58 purchase decisions (29 percent)
were inappropriate. To address these issues, SBA implemented the GPR process in FY 2000.
The purpose of the GPR process was to review a random sample of purchase decisions on a
quarterly basis to insure compliance with existing purchase procedures and identify areas in need
of improvement. In October 2002, SBA issued Policy Notice 5000-831 that provided general
guidance and instructions for processing 7(a) loan guaranty purchases. With the release of the
policy notice, SBA hoped to improve the quality, consistency, and timeliness of guaranty
purchase decisions.

B. Objective and Scope

    The audit objective was to determine if the guaranty purchase process adequately ensures
lender compliance with SBA rules and regulations and protects against erroneous guaranty
purchase payments.

   During the audit, we reviewed the procedures used to evaluate guaranty purchase requests
and examined SBA and lender loan files. We also interviewed SBA officials in the Office of
Field Operations (OFO), Office of Financial Assistance (OFA) and various field offices. The
audit period covered 7(a) loans purchased between January 1994 through January 2002.

    We examined the purchase decisions on 30 of 153 loans that had been identified with
material lender errors during this audit and a previous OIG audit. The 30 loans were purchased
for $26.6 million. Survey questionnaires were sent to all field personnel responsible for
processing guaranty purchase requests and making purchase decisions. The questionnaires
concentrated on individual purchase experience, management support, training, documentation
requirements, and workload. The results of the survey will be issued in a separate inspection
report.

   Fieldwork was performed from January 2002 through July 2002. The audit was performed
audit in accordance with Government Auditing Standards.

C. Prior Audit Resolution

    A September 30, 1997 audit report on the guaranty purchase process noted that 29 percent
(17 of 58) of the purchase decisions examined were incorrect or unsupported. The statistical
sampling techniques used to select the loans examined had a 90 percent confidence leve l. Based
on a projection of the loans examined, we estimated that SBA purchased 826 loans for $102.9
million without sufficient documentation to make an informed purchase decision. It was further
estimated that 389 loans purchased for $16.2 million resulted in erroneous payments because the
loan files contained documentation of lender errors that should have precluded purchase of all or
part of the guaranties. The cause for the erroneous payments was attributed to SBA district
offices that either made mistakes or were lenient when evaluating documentation on defaulted
loans with lender errors.

    The two primary recommendations included in the audit report were to (i) centralize the
purchase process to insure consistency in purchase decisions and eliminate the conflicting
responsibilities of the district offices, and (ii) provide additional guidance on the type of
information needed to protect SBA interests. SBA management concurred with the
recommendation to provide additional guidance but offered an alternative solution to
centralization of the purchase process. The Agency agreed to establish a quality assurance
program to review up to 10 percent of all purchase decisions on an annual basis. We agreed to
accept this action as an alternative solution to centralization. In FY 2000, the Office of Field
Operation established the GPR process to assess compliance with existing purchase procedures
and identify areas in need of improvement. The Agency has also proposed centralizing the
purchase process within a few districts on a pilot basis during FY 2003.




                                                2
                                      RESULTS OF AUDIT

    The 7(a) guaranty loan purchase process did not always identify material lender non-
compliance and adequately protect SBA from making erroneous guaranty purchase payments.
This resulted in $7.6 million of erroneous guaranty payments on 30 of the 153 loans we
examined that were purchased by SBA from January 1994 to January 2002. SBA did not have
sufficient documentation to support the purchase decision for seven loans with a purchase va lue
of $2.1 million. Documentation in the lenders’ loan files showed that SBA should not have
purchased the guaranties totaling $5.5 million for the remaining 23 loans because the lenders did
not comply with SBA policies and procedures. The audit also showed that the GPR program,
which was the result of an alternative solution to prior audit recommendations to centralize the
guaranty purchase process, needs improvement. After audit field work was completed, SBA
issued a policy notice in October 2002, designed to improve the guaranty purchase process.
While implementation of the procedures contained in the notice should help shore up the
guaranty purchase process, additional actions are needed to reduce the number of erroneous
payments.

Finding 1 Purchase Procedures did not Minimize SBA’s Risk of Making Erroneous
          Payments

     SBA did not identify several material lender non-compliances with 7(a) loan program
regulations on 30 of 153 purchased loans. Lender non-compliances involved loan origination
and closing, servicing, and liquidation actions. None of the compliance issues were identified
during SBA’s guaranty purchase process because the purchase procedures in effect at the time
were outdated, vague, and did not include controls for addressing loan origination issues, such as
the borrower’s ability to repay the loan from the cash flow of the business. As a result, SBA
erroneously paid $7.6 million to purchase the guaranties on 30 loans. (Refer to Appendix A for a
list these loans.)

SBA’s Loan Guaranty Purchase Process

    The guaranty purchase process is the primary control for ensuring lender compliance, on a
loan-by- loan basis, with the program rules and regulations and protecting SBA from making
erroneous payments. SBA is authorized to purchase the guarantied portion of a loan at any time
or when a lender demands in writing that SBA honor its guaranty upon default by the borrower.
In accordance with 13 Code of Federal Regulations (CFR) § 120.524, SBA is released from
liability on a loan guaranty, in whole or part, if the lender failed to comply materially with any of
the provisions of the regulations, the loan guaranty agreement, or the loan authorization. Further,
purchase of the guaranty portion of the loan does not waive any of SBA’s rights to recover
money paid on a guaranty, based upon the lender’s negligence, misconduct, or violation of
program rules or regulations.

    The guaranty purchase process begins with a purchase request from the lender or SBA’s
fiscal transfer agent for loans sold on the secondary market. Regardless of the request method, a
                                                 3
written demand for purchase must be submitted to SBA. The following must also be provided:
(i) a certified transcript of account, (ii) copies of all loan closing instruments, including the loan
guaranty agreement, loan authorization, note, guaranty, and (iii) collateral documentation with
evidence of required liens. As applicable, the lender must also provide copies of standby
agreements, evidence of equity injection, assignments of life insurance, and other documents as
may be required in the loan guaranty agreement and the loan authorization. Once received, the
documents are reviewed by an SBA purchase processor to determine SBA’s liability on the
guaranty.

    If it is determined that the lender did not comply with program rules and regulations which
will likely cause a loss to the Agency, the purchase reviewer may work with the lender to correct
the deficiency or to get the lender to reduce (repair) or withdraw the guaranty. If the lender
refuses to withdraw or accept a repair, the reviewer may recommend a partial or full denial of the
guaranty. The field offices are authorized to accept withdrawal or take repair actions, but denials
must be referred to the SBA’s Office of Financial Assistance in Washington, D.C. for a final
determination.

    The purchase procedures have essentially remained unchanged since 1983. During this time,
SBA has delegated loan processing, servicing, and liquidation authority to its best lenders under
the Preferred Lender Program (PLP). The number of PLP loans has increased over the years
and represented 55 percent of the 7(a) loans (in terms of dollars) approved in FY 2002. Before
the PLP program was established, SBA reviewed the credit decisions for all 7(a) loans before
approving a loan guaranty. Under the PLP program, that responsibility belongs to the lenders
and credit decisions are generally no longer subject to SBA scrutiny, prior to a purchase request.
SBA, however, did not implement adequate controls to offset the increased risk from the
delegation of lending authority. As a result, several loan guaranties were purchased that should
have been denied or repaired due to the lenders’ failure to comply with program rules and
regulations.

Lender Deficiencies not identified during the Guaranty Purchase Process

    The seven most common lender deficiencies found in the 30 purchased loans reviewed
involved, repayment ability, equity injection, use of loan proceeds, credit worthiness, IRS
verification, eligibility, and collateral. Most of the 30 loans exhibited two or more of these
conditions and recovery of the guaranty was usually based on the combined impact of these
deficiencies. The following sections provide details on each of the seven conditions.

    Ø Repayment Ability

   Fifteen of the 30 loans (50 percent) lacked repayment ability. According to SOP 50 10, the
ability to repay the loan from the cash flow of the business is the most important consideration in
the loan making process. The SOP further provides that historical earnings and cash flow are the
best basis upon which to gauge repayment ability, but realistic projections of future earnings may
be used if historical cash flow does not demonstrate repayment ability. The audit showed that
                                                   4
repayment ability was based on poor documentation, faulty cash flow projections, and
inadequate working capital. SBA purchased the guaranties on the 15 loans for $3.4 million.

   The following examples illustrate the type of repayment discrepancies that were not detected
during the guaranty purchase process.

   §   The lender for an SBA guarantied loan used unsupported information to establish the
       borrower’s repayment ability for a startup business. Projected cash flow was based on
       $600,000 in pending purchase orders and a patent for the sole product of the business.
       Documentation found in the lender’s loan file showed that the borrower had only one
       purchase order for $25,760 and a letter of intent to purchase the product. The letter of
       intent did not specify the quantity or amount of the purchase. Furthermore, there was no
       evidence that the borrower ever obtained the patent for the product. The borrower
       defaulted within 6 months of the final disbursement after making the equivalent of 1½
       payments. SBA purchased the loan guaranty for $116,772 without noting that the lender
       based repayment on inaccurate information.

   §   A lender accepted the borrower’s projection for the purchase of an on-going business in
       determining if there would be sufficient cash flow to repay a $280,000 SBA guarantied
       loan. The projections, however, omitted several expenses that were included in the
       business financial statements provided by the seller. Expenses excluded from the
       lender’s repayment calculation included disposal and environmental fees, worker’s
       compensation insurance, an increase in the lease payment, and owner’s salary or
       withdrawal. The result of these expenses, when included in the lender’s repayment
       analysis, is a negative cash flow. Under SBA regulations, a loan must be declined where
       there is no evidence of repayment ability. The borrower defaulted on the loan 8 months
       after disbursement. SBA purchased the loan guaranty for $191,458.

   Ø Equity Injection

    Ten of the 30 loans (33 percent) had material discrepancies involving equity injection. The
total amount of equity required for the 10 loans was $1.3 million, but only 50 percent of that
amount was supported in the lenders loan files. The remaining 50 percent either did not qualify
as equity or was not supported. Pursuant to OMB Circular A-129, “Policies for Federal Credit
Programs and Non-Tax Receivables,” borrowers who participate in Federal credit programs
should have an equity interest in any asset financed with the credit assistance, and business
borrowers should have a substantial capital or equity at risk in their business. The loan
agreements for all 10 loans required evidence of the equity injections prior to the first
disbursement. Standard Operating Procedures (SOP) 50 50 4, provides that lenders must submit
evidence of the equity injection with their guaranty purchase request. The guaranty purchase
procedures in effect at the time the loans were purchased, however, did not sufficiently define
what constituted adequate evidence of equity injection. Thus, determination of adequacy and
sufficiency was left up to the discretion of the individual purchase reviewers and/or field office.
SBA paid $3.4 million to purchase the guaranties on the 10 loans.
                                                 5
   The following examples illustrate the type of equity injection discrepancies found during the
audit.

      §   A borrower of a $450,000 SBA guarantied loan was required to inject $255,000 of
          equity into the business prior to loan disbursement. Eleven days after loan approval,
          the borrower submitted documentation to the lender showing that over $447,000 of
          expenditures for construction, franchising fees, equipment, and other items had been
          injected into the business. The lender accepted the documentation as evidence and
          submitted it to SBA with a guaranty purchase request. SBA also accepted the
          documentation as evidence of equity injection and paid the guaranty. An analysis of
          the documentation showed that only $191,000 of the expenses submitted by the
          borrower qualified as equity, which left an equity injection shortfall of $64,000
          ($225,000 - $191,000). Expenditures that did not qualify as equity included an unpaid
          invoice which was subsequently paid with loan proceeds and fees paid by the
          borrower’s principals that were later reimbursed with loan proceeds. The borrower
          defaulted after making only three payments, and the guaranty was purchased for
          $194,804.

      §   As evidence of a $70,000 equity injection on a $280,000 SBA guarantied loan, the
          borrower provided the lender with a detailed spreadsheest listing expenditures in
          excess of $95,000 as proof of equity injection. The spreadsheest included photocopies
          of receipts and checks in support of the expenditures. Documentation found in the
          lender’s loan file suggests that the lender did not do a careful review of the equity
          injection evidence before disbursing the loan. The borrower defaulted six months
          after the loan was approved and eight months later, the lender noted that most of the
          expenditures submitted by the borrower did not qualify as equity injection. The lender
          further noted that the amount that qualified as equity would depend on the
          interpretation of the District Office.

          After reviewing the lender’s purchase request, the District Office asked for additional
          evidence of the borrower’s $70,000 injection. The lender stated that a substantial
          amount of evidence for the cash injection was submitted with the purchase request,
          which included very detailed spreadsheets prepared by the borrower. The lender did
          not notify SBA that an internal review showed that the majority of the documentation
          submitted by the borrower might not qualify as evidence of the equity injection. The
          District Office did not question the lender any further on the equity injection evidence
          and purchased the loan guaranty for $191,458.

      §   The borrower of a $1.1 million SBA guarantied loan was required to pay $38,000 of
          the closing costs as equity injection. Prior to the first disbursement, the lender was
          required to obtain evidence of the borrower’s equity injection. The borrower
          defaulted on the loan after making only ten payments. The lender submitted a
          purchase request to SBA that included a list of $39,106 in closing costs that was
          submitted as evidence of the equity injection. A review of the lender’s loan file
                                                 6
          showed that the majority of the closing costs were paid from loan proceeds with the
          exception of a $500 escrow deposit and another $1,000 paid to a packager. As a
          result, 96 percent of the closing costs claimed as the borrower’s equity injection were
          actually paid with loan proceeds. SBA purchased the loan for$609,203.

   Ø Use of Loan Proceeds

    Ten of the 30 loans (30 percent) had lender deficiencies involving the use of loan proceeds.
SOP 50 50 4, Appendix 26, “Checklist for Purchase Documents,” requires lenders to include the
loan settlement sheet (SBA Form 1050) with the guaranty purchase request. The settlement sheet
shows how the loan was disbursed and serves as certification that it was disbursed in accordance
with the loan agreement. In addition, the settlement sheet identifies the approved methods for
disbursement, such as the use of joint payee checks to ensure that loan proceeds are used as
authorized. The problems identified included missing settlement sheets, failure to use joint
payee checks, lack of supporting evidences for expenditures, and unauthorized use of proceeds.
SBA paid $2.5 million to purchase the guaranties on the 11 loans.

  The following are examples of improper uses of loan proceeds.

   §   The lender of a $793,000 SBA guarantied loan did not take appropriate measures to
       ensure that the loan proceeds were used as authorized in the loan agreement. The lender
       disbursed $493,747 to refinance several borrower loans without obtaining sufficient
       documentation to determine if the debt met refinancing requirements. Among other
       things, the debt to be refinanced with the SBA loan must be on unreasonable terms and
       the refinancing must result in an increase in cash flow. The refinanced debt must also be
       current. The only documentation for the refinanced loans found in the lender’s file was a
       borrower-generated schedule that did not include sufficient information to evaluate the
       eligibility of the debt. Furthermore, the schedule showed that two of the loans were not
       current.

       The purchase request submitted by the lender included the settlement sheet (Form 1050)
       that was attached to a document that showed that the lender issued a $107,000 joint
       payee check, as required. A copy of the check found in the lender’s loan file, however,
       showed that the check was made out in the name of the borrower only and deposited into
       the borrower’s bank account. There was no evidence that the intended recipient of the
       check ever received payment for the balance on a purchase contract for equipment that
       also served as collateral to secure the loan. SBA noted neither of these lender
       discrepancies during the guaranty purchase review process. SBA purchased the loan
       guaranty for $595,925.

   §    According to the settlement sheet for a $280,000 SBA guarantied loan, $16,000 was
       disbursed directly to the borrower for working capital. The balance of $264,000 went to
       third parties via joint payee checks. The closing documents prepared at settlement,
       however, showed that $98,664 was disbursed directly to the borrower. Further, there
                                                7
       was no evidence to support that any of the proceeds disbursed to the borrower were used
       to purchase inventory, machinery, or equipment as stipulated in the settlement sheet and
       authorized in the loan agreement. SBA paid $191,458 on the loan guaranty.

   Ø Internal Revenue Service (IRS) Verification

    Seven of the 30 loans (23 percent) did not have adequate evidence that the lender obtained
IRS verification of the borrowers’ financial information. SOP 50 10 (4) and several SBA Policy
Notices require IRS verification of financial information for all loans to on-going business,
including the verification of the borrowing principals and the sellers’ financial information when
there is a change of ownership. Ten percent of the purchase processors that responded to the
survey indicated that they do consider the IRS verification requirement during the guaranty
purchase review. SBA purchased the guaranties on the seven loans for $1.2 million.

    The following example demonstrates the type of problems that can occur when IRS
verification is not obtained.

   §   The lender of an SBA guarantied loan permitted the purchaser of a restaurant to assume
       the SBA loan with a balance of $140,128. SOP 50 10 4 provides that loan assumptions
       must be evaluated in the same manner as a new SBA guarantied loan application.
       According to 13 CFR 120.150, the character of the applicant and the ability to repay the
       loan from the earnings of the business must be considered during the credit analysis.
       One of the things to be considerer is the applicant’s willingness to abide by the law. The
       individual that assumed the loan submitted several financial documents to the lender,
       including a Wage and Tax Statement (Form W-2), a Federal tax return, and an income
       statement. All three documents were clearly altered in order to assume an SBA
       guarnatied loan. The lender, however, did not obtain IRS verification as required by
       SBA regulations, which would have disclosed the applicant’s false statements. Moreover,
       SBA did not hold the lender accountable for failing to obtain the IRS verification during
       the guaranty purchase review process. SBA paid $93,689 to purchase the loan guaranty.

   Ø Credit Worthiness

    Six of the 30 loans (20 percent) had discrepancies involving credit issues. According to 13
CFR 120.150, the applicant for an SBA guarant ied loan must be credit worthy and loans must be
so sound as to reasonably assure repayment. A key consideration during a credit analysis is the
character, reputation, and credit history of the applicant, its associates and guarantors. Another
key consideration is the willingness and ability of the principals to pay their debts. SBA paid
$838,000 when it honored the guaranties on the six loans.

   Examples of lender deficiencies involving credit decisions follow.

   §   The borrower of an SBA guarantied loan had $47,000 of unpaid taxes when the loan
       application was submitted to the lender. According to the borrowing business’ financial
                                                8
        statements found in the lender’s loan file, the business owed $74,000 of Federal payroll
        taxes of which $47,000 was sixty days in arrears. There was no evidence that the lender
        questioned the borrower about the delinquent taxes or took measures to verify payment of
        the taxes prior to disbursement of the SBA loan. SBA purchased the loan guaranty for
        $177,166, 8 months after it was disbursed without considering the implication of the
        lender’s failure to recognize the financial difficulty facing the business as a result of the
        delinquent taxes and its reflection on the character of the borrower.

   §    The financial statements for a borrower of an SBA guarantied loan showed that accounts
        payable of $13,200 was 90 days or more past due. The past due accounts did not include
        delinquent sales taxes owed to the state. SBA guarantied loan proceeds were used to pay
        off the borrower’s past due accounts, with the exception of the delinquent taxes, but there
        was no explanation in the lender’s loan file to indicate the reason the account was
        delinquent. The state filed a tax lien for unpaid sales taxes one month after the loan was
        disbursed and the borrower made no payments on the loan before defaulting. SBA paid
        $70,105 on the guaranty without questioning the lender’s failure to consider the
        character implications of not paying state sales taxes.

   Ø Collateral

    Four of the 30 loans (13 percent) had missing collateral or were not fully secured with all
available collateral. Pursuant to SOP 50 10 (4), paragraph 41.h.1, SBA loans must be secured as
fully as possible with whatever worthwhile assets are available. Worthwhile assets include those
belonging to the applicant business and it principals. SBA paid $2 million to purchase the four
loans.

    §   The lender secured a $333,000 guarantied loan with collateral valued at $259,000.
        Based on the principal’s personal financial statements, additional collateral was
        available in the form of a motel and a condominium with a liquidation value of $83,200.
        If the collateral was taken to secure the loan as required, the loss to SBA might have
        been reduced by $62,400 (0.75 x $83,200). SBA purchased the guaranty for $245,981.

   Ø Eligibility

   Two of the 30 loans (7 percent) went to borrowers that did not qualify for Federal financing.
The discrepanc ies found during the audit involved a borrower who did not meet the residency
requirement and a borrower who had previously defaulted on several Federal loans. SBA paid
over $1 million to purchase the guaranties on the two loans.

   The following examples are purchased loans that did not meet SBA eligibility requirements.

    §   The lender made a $522,000 SBA guarantied loan to a borrower whose principal did not
        have the proper resident status at the time the loan was approved. According to SOP 50
        10(4), a lender must verify the resident alien status of an applicant to ensure that the
                                                 9
        principal is authorized to remain in the United States for at least half of the maturity of
        the approved loan. The principal clearly indicated on SBA Form 912, Statement of
        Personal History, that he was not a citizen and provided a copy of an employment
        authorization card, which authorized the borrower to remain in the United States for
        only two months after the loan approval date. The term of the loan was 22 years. SBA
        purchased the loan for $404,468 after the borrower made only seven payments.

    §   The lender approved a $1.1 million SBA guarantied loan to a borrower whose affiliated
        business had seven delinquent Federal loans. Pursuant to 31 CFR §285.13 and USC
        3720B, individual with outstanding delinquent Federal debts are ineligible to receive
        additional Federal financial assistance. SBA regulations at 13 CFR 120.110 (q) further
        specify that applicants are ineligible for an SBA business loan if the applicant or an
        affiliated business previously defaulted on a Federal loan that resulted in a loss. Prior
        to receiving the SBA guarantied loan, the affiliated business had received seven loans
        from the U.S. Department of Agriculture totaling $279,379; all of which were delinquent
        when the SBA loan was disbursed. Although the borrower did not disclose the existence
        of the affiliated business and associated loans in the loan application, the affiliated
        business was noted in the principals’ Federal income tax returns submitted to the lender
        with the loan applications. As a result of the delinquent Federal debt, the borrower was
        not qualified to receive additional Federal financial assistance in the form of an SBA
        guarantied loan. SBA purchased the loan guaranty for $609,203 without noting that the
        borrower was ineligible for the loan.

The Cause of the Incorrect Guaranty Purchase Decisions

    One of the main reasons so many material lender errors and non-compliances were not
detected by the guaranty purchase review process was the lack of adequate guidance provided by
SBA and inconsistent interpretation of that guidance by the field offices. Another cause for the
errors was the lack of a formal training program.

   §    Inadequate Guidance

       The guaranty purchase procedures in affect at the time of the audit had not been
   significantly revised since 1983, while at the same time the number of PLP loans being made
   by lenders authorized to make credit decisions without SBA oversight was increasing. The
   procedures applied by SBA for evaluating credit decisions and repayment ability for non-
   PLP loans, however, were not incorporated into the guaranty purchase process, even though
   SBA considers repayment ability to be the most important aspect of the loan making process.
   Consequently, the risks involved with the delegation of lending authority were not offset by
   compensating controls in the guaranty purchase process.

       Most of the lender credit decisions for the 30 loans we questioned were accepted by SBA.
   This apparent practice to not second-guess lender credit decisions is reflected in the survey of
   loan processors conducted during the audit. Over 43 percent of those that responded said
                                                10
   they do not consider creditworthiness or repayment ability during the guaranty purchase
   reviews. One respondent noted, “SBA cannot question lender decisions or underwriting on
   PLP loans.” Another noted, “our review has nothing to do with the lender approval of the
   loan.” The responses reflect an environment where purchase processors do not scrutinize
   lender compliance with arguably the most important aspects of the loan making process---
   loan origination and repayment ability.

       Also, the purchase procedures provided little guidance on how to evaluate equity
   injection. Thus, determination of lender compliance with the equity injection requirement
   was left to the discretion of the individual purchase processors and/or each field office. One
   respondent to the survey indicated that the degree of evidence needed for equity injection
   depended on “who you ask” while another stated, “it depends on what the injection was
   required for.” Many of the respondents believed that paid invoices or cancelled checks were
   adequate evidence of equity injection while others believed that financial statements and the
   settlement sheets were sufficient. Clearly, there were a wide variety of opinions among the
   guaranty purchase processors as to what is acceptable evidence for equity injection.

   §   Lack of a Training Program

       SBA had no formal program for training personnel responsible for processing guaranty
   purchase requests and ensuring against erroneous purchase payments. Over 81 percent of the
   respondents to the survey questionnaire stated that they did not have any formal training.
   One respondent commented, “I wish courses were offered and made available” and another
   stated, “it might be very helpful to have a class.” One purchase processor stated that “they
   learned by doing and making mistakes so you eventually establish your own criteria.” One
   respondent went so far as to say, “I beg for training.”

New Guidance on Guaranty Purchase Processing

    During the audit, SBA issued Policy Notice 5000-831, “7(a) Loan Guaranty Purchase
Policy,” which took effect on October 2, 2002. The new policy was developed based on
information obtained through the GPR and other sources, including the on- going audit of the
guaranty purchase process. The new policy strengthened many of the areas in the purchase
process that allowed material lender errors to go unchecked. An example of one improvement is
the requirement that all PLP lenders submit the Statement of Personal History (Form 912) on
early default loans, the credit memorandum with all supporting documentation, and a complete
copy of the borrower’s loan application when a PLP loan defaults or experiences payment
problems within the first 18 months after disbursement.

    The Guaranty Purchase Review Program FY 2001 Final Summary Report, issued May 2002,
by the Office of Field Operations (OFO) noted that it was critical that individuals who process
guaranty purchase requests be adequately trained so that field staff can purchase loans
consistently, accurately, and efficiently. Thus, OFO recommended that all purchase review staff
be required to attend updated training. During the audit, OFO entered into a contract for the
                                               11
development of a training course to be given to all field personnel responsible for processing
guaranty purchase requests. Although a schedule for the training had not been established,
development of the course is scheduled for completion by March 31, 2003.

    According to OFO, improved purchase guidance and training will lead to a reduction of
erroneous payments on 7(a) loan guaranties.

The Purchase Review Process can be Strengthened by Lender Loan File Reviews

    The guidance provided in the new guaranty purchase policy and the development of a formal
training program should enhance the purchase review process and improve the consistency in
purchase decisions among the various field offices. The new policy does not go far enough,
however, to ensure full lender compliance with SBA rules and regulations. For instance, under
the new policy for verifying a cash equity injection, the lender is required to obtain copies of the
checks and the borrower’s bank statement to evidence the source and destination of the funds.
These documents alone are not sufficient to determine if the cash came from borrower equity or
a loan, which would require a stand-by agreement to qualify as equity. The best way to ensure
that all pertinent documents are considered during the purchase review process is to obtain and
review the lender’s loan files.

   The following examples illustrate the benefits of reviewing the lender’s files.

    §   The lender of a purchased PLP loan accepted copies of 74 cancelled checks and 22
        receipts as evidence for a $43,000 equity injection. The checks, however, were drawn on
        the same bank where the borrower had seven commercial loans and the timing of the
        checks paralleled the timing of the loans. All seven loans were refinanced with the SBA
        loan. Although the evidence used to develop this finding (i.e., various checks, bank
        statements, and a lender developed schedule of loans to be refinanced) was found in the
        lenders loan file, it would not necessarily be provided to SBA under the new guaranty
        purchase policy.

    §   The lender of another PLP loan obtained what was believed to be evidence of $70,000 in
        equity injection, but an internal audit conducted by the lender showed that only $20,000
        of the documentation qualified as evidence of the equity injection. In spite of the finding,
        the lender submitted the voluminous equity injection documentation to SBA with its
        guaranty purchase request. When SBA questioned the lender about the evidence, the
        lender claimed that the documents submitted were more than sufficient to support the
        full amount of the required equity injection. The loan was purchased without further
        review of the evidence.

    The Policy Notice also does not require lenders to submit the documentation needed to
identify other types of lender non-compliances as shown in the following examples:



                                                 12
      §   The lender of a $100,000 LowDoc loan stated in the loan officer’s report that projected
          sales would increase by 900 percent based solely on two distribution agreements
          negotiated by the borrower. There was no evidence that either agreement was ever
          executed which was only determined after examining the entire lender loan file. The
          borrower defaulted after making 17 payments, ten of which were interest only.

      §   On another PLP loan, the president, who owned 40 percent of the borrowing business,
          answered yes to the criminal history question on the Form 912 that was found in the
          lender’s loan file. This should have made the loan ineligible for processing under PLP
          procedures, but instead of providing additional information on the criminal activity and
          submitting the loan to SBA for approval, the president sold all his shares in the business
          to the secretary to avoid the requirement to submit a 912. The requirement still existed
          in this case, however, because the transaction occurred within six months of applying for
          a loan. The lender did not submit the Form 912 with the guaranty purchase request, so
          SBA was unaware of its existence. This is another example of a material problem that
          was discovered by reviewing the lender’s loan file.

    It is uncertain if the lender non-compliances described in the preceding examples would be
identified under the new guaranty purchase policy because the documentation needed is not
required. The only way to insure that these conditions are identified is by performing a thorough
review of the lender’s loan file. One approach to accomplish this would be to use a two-stage
process. The first stage would consist of a desk review of the lender’s loan file to search for
indications of material lender errors or non-compliances that might impact the guaranty. If
potential problems were discovered during the desk review, the second stage would consist of a
thorough examination of the lender’s loan file to determine if there is sufficient evidence to
warrant corrective action on the guaranty. If there were no indications of problems found during
the during the desk review, the purchase request would be processed under standard purchase
procedures.

RECOMMENDATIONS

   We recommend that the Associate Administrator for Financial Assistance take the following
action:

1.A       Strengthen the guaranty purchase process by establishing risk-based criteria for obtaining
          the entire lender’s loan files, e.g., for all early default loans. Loans considered to be high
          risk should be subject to a more detailed review, such as the “two-stage” approach
          discussed in the audit report.

    We recommend that the Associate Administrator for Field Operations take the following
action:

1.B       Establish a time frame for completing the training of all individuals involved with
          guaranty purchase processing.
                                                    13
Management Response

    The Assistant Administrator for the Office of Financial Assistance (AA/OFA) and the
Associate Administrator for the Office of Field Operations (AA/OFO) indicated that they had not
had the opportunity to review the audit results and, therefore, could not agree or disagree with
the findings at this time. SBA officials also took exception with several issues presented in the
body of the audit report as follows:

   •   The 30 problematic purchased loans identified in the audit are only potential deficiencies
       and may merely lack documentation support rather than being an actual lender
       deficiency.
   •   Most of the loans were made by the same lender that is no longer in the program.
   •   The OIG $7.6 million erroneous payment estimate will likely result in a much lesser loss
       once liquidations are complete.
   •   A 1997 OIG audit report identified 17 loans with potential material deficiencies.
       Documentation found subsequent to the audit supported the purchase decisions.
       Consequently, the 1997 audit figures likely substantially inflated the estimated losses.

    Notwithstanding the above issues, SBA management agreed to study recommendation 1.A
and reported that it has already developed a time frame for completing training for SBA
personnel as recommended in recommendation 1.B.

OIG Response

   Minor adjustments to the draft report have been made based on discussions with officials
from the Office of Field Operations, the Office of Financial Assistance, and the Office of
General Counsel.

    The purchase decisions on the 30 problematic loans cited in the report comprise 20 loans that
were examined during a recent audit of a single lender and 10 that were analyzed during this
audit. The fact that 20 loans were made by a single lender that no longer participates in the SBA
7(a) loan program has no bearing on the quality of the guaranty purchase decisions made at the
12 different field offices involved with these purchase decisions. To date, the OIG has issued
audit reports on 9 of the 20 loans which have resulted in over $1.9 million in guaranty payment
recoveries. Two of the nine reports with combined recommended recoveries totaling $178,600
are under appeal. The remaining 11 loans have a potential recovery of $1.5 million. Based on
the success of the first nine audit reports (involving seven field offices), we believe there is a
high probability of recovering all or a major portion of the guaranties paid to purchase the 11
loans. Furthermore, since the auditors obtained both the SBA and lender files all supporting
documentation has been considered.

   Regarding the questionable purchase decisions for the ten loans examined during this audit,
seven were identified as problematic by the GPR teams and after obtaining additional
documentation, the SBA determined that the original purchase decisions were supportable for six
                                                14
loans and requested repayment of the guaranty for one loan. The remaining three purchase
decisions, however, are being evaluated by the OIG and may result in recommended recoveries
totaling approximately $1.5 million. Regarding management’s comments that the estimated $7.6
million in erroneous payments on the 30 loans will likely result in a much lesser loss once the
liquidations are completed, SBA records show that 20 of the 30 loans have already been
liquidated and charged off.

    Finally, the estimated amounts cited in the 1997 guaranty purchase audit report were based
on 17 purchase decisions that were unsupported at the time SBA decided to honor the guaranty.
A review of the SBA purchase files for ten of the loans showed that they contained insufficient
documentations for rendering proper purchase decisions. The purchase files for the other 7 loans
contained evidence that the lender failed to comply with SBA rules and regulations.
Consequently, none of the purchase decisions were supportable at the time of purchase. This
placed the Agency at risk of making erroneous payments for a projected amount of $102.9
million at the time of purchase. This is the point of the finding; that purchase decisions were
made without supporting documentation, not whether the documentation was obtained
subsequent to the guaranty purchases.

    Accordingly, we continue to advocate that SBA take the corrective actions specified in
recommendations 1.A and 1.B.

Finding 2 The Guaranty Purchase Review Process can be Strengthened

    The GPR process was established in FY 2000 as an alternative solution to an OIG audit
recommendation to centralize the purchase process. The primary purpose of the GPR program is
to assess the accuracy of prior purchase decisions and identify areas for improvement. Each
quarter, a sample of purchased loans is selected for review by GPR teams. During FY 2001, the
GPR teams reviewed 300 purchased loans from 77 different field offices. The OIG audit found
that due to the limitation discussed below, the GPR process did not identify all inappropriate
purchase decisions. Also, the method used to select the sample of loans is not statistically valid.
Consequently, the results of the GPR may not reliable for projection or reporting the erroneous
payments as required in OMB Circular No. A-11.

The GPR did not include a Review Le nders’ Loan File

    The GPR procedures do not require a review of the lenders’ loan files in assessing the quality
and accuracy of the original purchase decision. This is because the GPR is designed to test SBA
compliance with existing guaranty purchase procedures, which do not require a review of the
lenders’ loan files and are primarily limited to reviewing the documentation assembled during
the original purchase decision. As a result, inappropriate purchase decisions that can only be
discovered by reviewing the lender’s loan files will not be identified.




                                                15
    For example, an OIG review of a lender’s loan file for a PLP loan purchased by SBA showed
that one of the two principals had a criminal history, but the lender’s purchase request did not
include this information. The original loan application submitted to the lender included a
Statement of Personal History (Form 912) for each principal that showed one principle had a
criminal history. Under Federal Regulations, business associates with a criminal history may not
be eligible for an SBA business loan and the Office of Inspector General must clear applicants
that answer ‘yes’ to a criminal history on the Form 912 before processing. The definition of an
associate includes individuals who own more than 20 percent of the equity. According to SBA
regulations, an associate relationship commences six months before the date of the loan
application and continues as long as the loan is outstanding. Also, loans to principals with
criminal history are not eligible for processing under the PLP. The lender, however, elected to
permit the principal with the criminal history to sell his shares in the business to the other
principal and submit a revised application rather than submitting the original loan application to
SBA for approval.

    The second application did not include a Form 912 for the principal with the criminal history
and, upon default by the borrower; the lender application that was submitted with its guaranty
purchase request. Consequently, without the lender’s loan files, SBA had no way of knowing
about the lender’s questionable practice and the principle’s criminal history. Moreover, it is
unlikely that the quarterly GPRs would identify the inappropriate decision to purchase this loan
because GPRs are limited to examining compliance with existing procedures and documentation
obtained at the time of the purchase review. (Refer to finding 1 for more examples.)

GPR Sampling Methodology is too Restrictive

    Prior to each GPR, a sample of purchased loans is judgmentally selected, i.e. one loan from
each SBA field office. Prior to FY 2002, loan selection was restricted to those charged off
within 6 months of the purchase date. In FY 2002, that period was extended to 12 months. The
reason for the charge off requirement is found in the FY 2001 GPR summary report, that noted
“liquidation practices are among the most common bases for denial of purchase” and, therefore,
the liquidation process should be completed before the loan is subject to review.

    We found that not all purchased loans are liquidated within 12 months of purchase. An OIG
audit of a purchased loan showed that a SBA guarantied loan purchased for $595,925 in
December 1999 was not charged off for 2 1/2 years. The audit also found that the lender did not
materially comply with SBA regulations, which resulted in recovery of $450,559 of the guaranty
as recommended in the audit report. This loan would not be eligible for review under the GPR
process, however, because it was not charged off within 12 months of purchase. Consequently,
the GPR process would not have detected the erroneous purchase. As of September 30, 2002, a
total of 3,896 loans purchased for over $675 million did not meet the 12- month selection
requirement. Under current policy, none of these loans will be subject to the GPR quality
assurance process.



                                               16
RECOMMENDATIONS

    We recommend that the Associate Administrator for Field Operations take the following
actions:

2.A    On a sample basis, obtain the lender’s loan files for loans reviewed under the GPR to
       ensure the quality of the purchase decision.

2.B    Employ valid statistical sampling techniques to select purchased loans for GPR team
       reviews so that results are comparable from year to year and can be used to track progress
       in reducing erroneous payments.

2.C    Revise the criteria for selecting loans for purchase decision review by deleting the
       requirement that a loan be purchased and charged off within a specific timeframe. We
       recommend that the 12- month criteria be eliminated and that loans be selected based on
       purchase or charge off date.

Management Response

     According to SBA management, the GPR program has had substantial impact on the
guaranty purchase process and the number of field office guaranty repairs has increased since the
initiation of the GPR. Furthermore, the management document that instituted the GPR in FY
2000 provided that SBA would perform “an arm’s length review” of loan processing. This
means that the GPR teams must only review the same materials reviewed in the field offices in
making purchase decisions. Thus, including a review of the lenders’ files would not be
consistent with the current process. Management also stated that including the lenders’ loan file
in the GPR process would impact the workload and significantly increase the costs to SBA and
the lenders.

    SBA management stated that it uses a random sampling methodology for selecting loans for
each GPR. The population of purchased loans from which a sample is selected includes all
business loans purchased and charged-off in the prior fiscal year. This ensures that that current
purchase practices are reviewed and SBA will not be seeking recovery on loans purchased many
years ago, with possible statute of limitations issues. The charge-off criterion ensures that the
reviews cover one key basis for denial of liability set forth in 13 C.F.R. Section 120.254. SBA
has found through experience that deficiencies in liquidation practices are a common reason for
repair actions and therefore, should be examined in the GPR review. The criterion to review
loans that were charged off within 12 months of the purchase date is in line with SBA data,
which shows that the average time from purchase to charge-off is 9 months.

   Another criterion of the GPR process is to select loans from each purchasing field office.
SBA believes this is critical for purposes of identifying purchase issues at each field office.
According to SBA management, prior OIG reviews included a relatively small number of SBA’s
                                               17
77 field offices and the results were then extrapolated to the entire loan portfo lio. While this
may be sufficient for OIG projections, SBA seeks to go further with program management.
Reviewing a few loans from each field office provides SBA management much greater accuracy
and accountability for loan processing.

OIG Response

    We do not agree with management’s position that the GPR is prohibited from obtaining and
reviewing the lender files. It is our position, however, as noted in finding 1, that lender file
reviews should be an integral part of the guaranty purchase reviews performed in the field
offices. This does not mean that the GPR would need to review lender files for all selected
loans. A sample review of a few lender files during each GPR is necessary for quality assurance
purposes. Recommendation 2.A was modified based in part, on management’s response and our
position described herein.

    We also do not agree that the GPR sampling methodology is reliable for accurately assessing
the condition of the population of purchased loans. The restrictive criteria placed on the GPR
sample, i.e., one loan from each district office and loans purchased and charged off within the
same 12- month period; limit the sample to a point where it is not representative of the population
as a whole. To achieve valid statistical results that reflect the population, it is necessary to use an
unrestricted random sample selection method that allows each purchased loan an equal
opportunity of being selected. While the sampling methodology used by the GPR may be
acceptable for internal oversight purposes, it is not reliable for projecting to the population of
purchased loans or reporting the projected level of erroneous guaranty purchase payments. If the
Agency plans to use the results of the GPR for these purposes, then the sampling methodology
and its limitations must be fully disclosed.

    One of the most significant limitations of the GPR sampling methodology is the restriction to
loans purchased and charged off within the same 12- month period. In the response, SBA
management stated that the average loan is charged-off within 9 months of purchase.
Management fur ther stated that the 12- month criteria eliminated problems that would be created
if GPR began to examine and question loans purchased several years earlier. Our analysis of the
SBA loan data base showed that 40 percent of the loans purchased during FY 2000 and FY 2001
exceeded the 12- month criterion and therefore, would be eliminated from the GPR sample pool.
The excluded loans represented $528.5 million or 66 percent of the total gross guaranties
purchased in FY 2000 and FY 2001. Clearly, it appears that the sampling method employed by
the GPR excludes a significant portion of the purchased loans from the quality assurance
process. Also, regarding the concern of reviewing purchases several years old, the statue of
limitations for purchased loans is 6 years from the date of discovery. We question any decision
not to pursue recovery on a bad purchase that is within the 6 year period. Consequently, we
continue to question the use of the GPR sampling methodology as viable tool for ensuring the
overall quality of the guaranty purchase process and protecting SBA against erroneous payments.



                                                  18
    Finally, SBA questioned the estimates presented in the 1997 audit report on the guaranty
purchase process and the limited number of field offices examined. The sampling methodology
used during that audit was based on valid statistical sampling techniques. The sample was based
on a 90 percent confidence leve l, which measures the precision of the sample. Precision is a
measure of the expected difference between the values found in the sample and the values of the
same characteristics that would be expected to be found if a 100 percent of the units under
examination were reviewed. Thus, due to the 90 percent confidence leve l of the sampling
method used during the 1997 audit, the estimated amounts presented in the audit report are most
likely representative of the purchased loan population examined during that audit.

    Regarding the limited number of field offices examined, during the audit we conducted a
survey of personnel in all SBA field offices that make purchase decisions. The results of the
survey, which will be issued in a separate OIG Inspection report show that the problems cited in
this and prior audit reports are pervasive throughout the SBA field offices.




                                               19
                                                                                                  Appendix A
                                       SCHEDULE OF LOANS REVIEWED

                                                                            Purchase       Non-Compliance
 Loan                                          Amount                        Amount        Type (See Note)
Number            Loan Type            Disbursed   Purchased                Questioned
[FOIA                PLP                $1,000,000              $640,325       $640,325            7
    EX. 4]           PLP                  $900,000              $613,530       $613,530            3
                   LowDoc                  $75,000               $39,856        $39,856            3
                     PLP                  $100,000               $83,576        $83,576           2, 4
                     PLP                  $140,000               $96,360        $96,360            2
                     PLP                  $150,000                $93689         $93689           5, 6
                     PLP                 $1,100,00              $609,203       $609,203         1, 2, 3
                     PLP                  $233,250              $177,058       $177,058           2, 6
                     PLP                  $150,796              $116,722       $116,722         2, 4, 5
                     PLP                $1,250,000              $542,668       $542,968            2
                     PLP                  $523,700              $142,549       $142,549         2, 3, 5
                     PLP                  $522,000              $404,468       $404,468            1
                     PLP                  $200,000              $152,044       $152,044           3, 4
                     PLP                  $793,000              $595,925       $450,559            4
                     PLP                  $400,000              $309049        $309049          2, 4, 5
                     PLP                  $846,000              $653,455       $653,455           3, 4
                     PLP                  $550,000              $427,079       $427,079           6, 7
                     PLP                $1,400,000              $777,516       $777,516         2, 3, 7
                   LowDoc                 $100,000               $84,911        $84,911           2, 4
                     PLP                   $91,000               $64,975        $64,975         2, 3, 6
                   LowDoc                 $100,000               $74,989        $74,989            2
                   LowDoc                  $75,000               $45,307        $45,307         2, 3, 5
                     CLP                  $450,000              $194,804        $63,497            3
                     PLP                  $333,000              $245,981        $62,402            7
                     CLP                  $263,657              $162,661       $162,661            3
                     PLP                  $234,000             $177,1668       $177,166           5,6
                     PLP                  $280,000              $197,752       $197,752        2, 3, 4, 6
                  Regular 7(a)            $250,000              $129,802       $129,802            4
                     PLP                  $120,800               $70,106        $70,106           4, 6
                     PLP                  $220,000              $168,916       $168,916            2
    Totals                              $12,851,203            $8,092,439     $7,632,489

  Note:
          Type of Non-compliance
           1. Eligibility
           2. Repayment Ability
           3. Equity Injection
           4. Use of Proceeds
           5. Character
           6. IRS Verification
           7. Collateral (missing or not all available collateral taken)
                                                                                                                             Appendix C


                                          AUDIT REPORT DISTRIBUTION


    Recipient                                                                                               Number of Copies

Deputy Associate Administrator for
 Capital Access......................................................................................................... 1

General Counsel........................................................................................................ 1

Office of Chief Financial Officer
 Attn: Jeff Brown...................................................................................................... 1

General Accounting Office ....................................................................................... 1
